DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
_________________________________
TROY MERCK, JR.,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
_________________________________
_______________________________________
CORRECTED PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
_______________________________________

MARTIN J. McCLAIN
Florida Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
FAX: (954) 564-5412
martymcclain@comcast.net
COUNSEL FOR PETITIONER

QUESTIONS PRESENTED
1.

Whether a defendant’s “[a]utonomy to decide that the

objective of the defense is to assert innocence.” McCoy v.
Louisiana, 138 S.Ct. 1500, 1508 (2018), is violated by the
assertion of a voluntary intoxication defense which by its very
nature only negates the specific intent element of first-degree
murder.
2.

Whether trial counsel “usurp[s] control” in violation

of the Sixth Amendment when he presents an affirmative defense
conceding his client committed a criminal act rather than
“maintain [the defendant’s] innocence, leaving it to the State to
prove his guilt. Beyond a reasonable doubt”, as the defendant had
asserted. See McCoy, 138 S. Ct. at 1511.

i

NOTICE OF RELATED CASES
Per Supreme Court Rule 14.1(b)(iii), the following cases
relate to this petition:
Underlying Trial:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Judgement Entered September 9, 1993
Appellate Proceedings:
Florida Supreme Court (Case No. 60-83,063)
Merck v. State, 664 So. 2d 939 (Fla. 1995)
Conviction Affirmed; Sentence Set Aside: October 12,
1995
Re-Sentencing Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Sentence of Death Imposed: September 12, 1997
Appellate Proceedings:
Florida Supreme Court (Case No. 60-91,581)
Merck v. State, 763 So. 2d 295 (Fla. 2000)
Death Sentence Vacated: July 13, 2000
Second Re-Sentencing Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Sentence of Death Imposed: August 6, 2004
Appellate Proceedings:
Florida Supreme Court (Case No. SC04-1902)
Merck v. State, 975 So. 2d 1054 (Fla. 2007)
Death Sentence Affirmed: December 6, 2007
Initial Postconviction Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Judgement Entered August 27, 2010 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC10-1830)
Merck v. State, 124 So. 3d 785 (Fla. 2013)
Affirmed: January 24, 2013
Successive Postconviction Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Judgement Entered December 20, 2018 (denying motion)
ii

Appellate Proceedings:
Florida Supreme Court (Case No. SC18-88)
Merck v. State, 260 So. 3d 184 (Fla. 2018)
Affirmed: December 28, 2018
Second Successive Postconviction Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Judgement Entered May 4, 2017 (vacating death sentence
and order a new penalty phase based on Hurst v.
Florida, 136 S.Ct. 616 (2016)
Third Successive Postconviction Proceedings:
Circuit Court of Pinellas County, Florida
State of Florida v. Troy Merck, Jr., Case No. 91-16659 CFANO
Judgement Entered September 26, 2019 (dismissing
motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC19-1864)
Merck v. State, 298 So. 3d 1120 (Fla. 2020)
Affirmed: July 9, 2020

iii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . .

i

NOTICE OF RELATED CASES . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . .

v

CITATION TO OPINION BELOW . . . . . . . . . . . . . . . .

1

STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . .

2

PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . .

2

FACTS RELEVANT TO QUESTIONS PRESENTED . . . . . . . . . .

4

FLORIDA SUPREME COURT’S RULINGS . . . . . . . . . . . . . 11
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . 12
I.

THIS COURT SHOULD REVIEW THE ISSUE OF WHETHER
TRIAL COUNSEL’S DECISION TO PRESENT A VOLUNTARY
INTOXICATION DEFENSE VIOLATED MR. MERCK’S AUTONOMY
TO ASSERT HIS INNOCENCE.. . . . . . . . . . . . 12

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . 19
CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . 19

iv

TABLE OF AUTHORITIES
PAGE
Hurst v. Florida,
136 S.Ct. 616 (2016) . . . . . . . . . . . . . . . .

3

Linehan v. State,
476 So. 2d 1262 (Fla. 1985). . . . . . . . . . . . . 17
McCoy v. Loisiana,
138 S.Ct. 1500 (2018). . . . . . . . . . . . . . passim
Merck v. State,
664 So. 2d 939 (1995). . . . . . . . . . . . . . . .

2

Merck v. State,
763 So. 3d 295 (Fla. 2000) . . . . . . . . . . . . .

2

Merck v. State,
975 So. 2d 1054 (Fla. 2007). . . . . . . . . . . . .

3

Merck v. State,
124 So. 3d 785 (Fla. 2013) . . . . . . . . . . .

3, 17

Merck v. State,
260 So. 3d 184 (Fla. 2018) . . . . . . . . . . . . .

4

Merck v. State,
298 So. 3d 1120 (Fla. 2020). . . . . . . . . . 1, 4, 11

v

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019
_________________________________
TROY MERCK, JR.,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
_________________________________
Troy Merck respectfully petitions this Court for a writ
of certiorari to review the decision of the Florida Supreme
Court.
CITATION TO OPINION BELOW
The Florida Supreme Court’s decision appears as Merck
v. State, 298 So. 3d 1120 (Fla. 2020). See Attachment A.
STATEMENT OF JURISDICTION
Petitioner invokes this Court's jurisdiction to grant
the Petition for a Writ of Certiorari to the Florida Supreme
Court on the basis of 28 U.S.C. Section 1257. The Florida
Supreme Court entered its opinion on July 9, 2020.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the Constitution of the United
States provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be
confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his
defense.
PROCEDURAL HISTORY
On November 14, 1991, Mr. Merck was indicted with the
premeditated first-degree murder of James Newton (R. 17-8).
Mr. Merck’s trial commenced on August 31, 1993, and he was
found guilty on September 7, 1993 (R. 2010). The following week,
Mr. Merck’s jury recommended a sentence of death (R. 2054-5), and
the trial court imposed a sentenced of death (R. 2129-35).
On direct appeal, the Florida Supreme Court affirmed Mr.
Merck’s conviction, reversed his sentence of death and remanded
for further proceedings. Merck v. State, 664 So. 2d 939 (Fla.
1995).
At Mr. Merck’s re-sentencing, the jury recommended the death
sentence and Mr. Merck was sentenced to death on September 12,
1997 (R2. 597; 762-74).
On direct appeal from the re-sentencing, the Florida Supreme
Court again reversed Mr. Merck’s sentence of death and remanded
for further sentencing proceedings. Merck v. State, 763 So. 2d
295 (Fla. 2000).
2

Mr. Merck’s second re-sentencing proceeding commenced on
March 17, 2004. On March 19, 2004, the jury recommended a
sentence of death, by a vote of 9-3 (R3. 251). On August 6, 2004,
Mr. Merck was sentenced to death (R3. 310-5).
On direct appeal from the second re-sentencing, the Florida
Supreme Court affirmed Mr. Merck’s sentence of death. Merck v.
State, 975 So. 2d 1054 (Fla. 2007).
Mr. Merck filed a Rule 3.851 motion on September 2, 2009
(PC-R. 1-169), and a limited evidentiary hearing occurred on July
20-21, 2010. On August 27, 2010, the state circuit court denied
all relief (PC-R. 300-660).
Mr. Merck appealed to the Florida Supreme Court. He
simultaneously filed a petition for writ of habeas corpus. The
Florida Supreme Court denied all relief. Merck v. State, 124 So.
3d 785 (Fla. 2013).
Mr. Merck filed a petition for writ of habeas corpus in the
United States District Court for the Middle District of Florida
on May 14, 2013. The petition was dismissed without prejudice on
November 22, 2017.
On January 25, 2016, Mr. Merck filed a successive Rule 3.851
motion (PC-R2. 55-76). On January 6, 2017, Mr. Merck filed
another successive Rule 3.851 motion relating to Hurst v.
Florida, 136 S.Ct. 616 (2016).
On May 4, 2017, the state circuit court granted Mr. Merck’s
motion, in part, and granted Hurst relief.
As to the claim set forth in his January 25, 2016, motion,
3

an evidentiary hearing was held on October 2, 2017. Thereafter,
the circuit court denied all relief.
On appeal, the Florida Supreme Court affirmed the denial of
relief. Merck v. State, 260 So. 3d 184 (Fla. 2018).
On May 10, 2019, Mr. Merck filed a successive Rule 3.851
motion based upon McCoy v. Louisiana, 138 S.Ct. 1500 (2018) (PCR3. 3-15.
After initially striking the motion without prejudice to
substitute counsel (PC-R3. 16-19), the state circuit court
reinstated the motion and dismissed it on September 26, 2019 (PCR3. 26-29). Mr. Merck appealed.
On July 9, 2020, the Florida Supreme Court affirmed the
denial of relief. Merck v. State, 298 So. 3d 1120 (Fla. 2020).
FACTS RELEVANT TO QUESTIONS PRESENTED
Mr. Merck’s first capital trial occurred in November 1992,
and concluded with a hung jury (R. 1386, 1465). At the first
trial, Merck solely pursued a voluntary intoxication defense,
contending that on the night of the crime, an underage and
slightly built Mr. Merck was highly intoxicated, having had at
least 6 beers and several shots of liquor.
The fact that the first trial resulted in a hung jury
provided Merck an opportunity to hear and see the State’s
evidence. Mr. Merck realized that his only basis for believing
that he had committed the murder was because his friend, Neil
Thomas, who was with Mr. Merck on the night of the crime, told
him that he (Merck) had killed Mr. Newton. However, the evidence
4

presented at trial suggested that Thomas had killed Mr. Newton,
not Mr. Merck.
This evidence included the following: On October 12, 1991,
Mr. Merck and Thomas arrived at the City Lights nightclub in
Clearwater Beach (T. 740, 820).
While at the bar, Thomas admitted that he provided alcohol
to an underage Mr. Merck, though he down played Mr. Merck’s level
of intoxication.
At closing time, the two proceeded to the parking lot. While
individuals milled about, a confrontation occurred relating to
Mr. Merck and Thomas leaning against Katherine Sullivan’s car.
The confrontation escalated with Mr. Newton being attacked with a
knife. Mr. Merck and Thomas fled the scene in their car, a
Mercury Bobcat.
Sullivan testified at trial that, after the bar closed, she
was sitting in her car with her boyfriend, Glen Sharpenstein when
they were joined by Mr. Newton and Don Ward (T. 418). She asked
two individuals (Merck and Thomas), who had been leaning on her
car to move away from the car and the pair responded by being
very sarcastic (T. 421). Sullivan exited her car to speak to Mr.
Newton and the shorter of the two individuals made a sarcastic
remark to them (T. 422-23). The exchange escalated quickly with
the instigator trying to fight Newton and calling him names (T.
422-23). And, even though Sullivan identified Merck as being the
attacker, instigating a fight and calling Mr. Newton a “pussy”,
i.e., the shorter one, according to Thomas, he was in fact the
5

individual bantering with Mr. Newton, calling him a “pussy” and
confronting him (T. 744-5; 796).
Sullivan also told law enforcement that the attacker had
gone to the other side of the Bobcat, found the doors locked and
called for the keys (T. 424). He did so by pounding his open palm
on the top of the Bobcat, above the window (T. 424-32). Indeed, a
palm print was located in this area of the Bobcat – it belonged
to Thomas, not Mr. Merck (T. 612; 621-2).
Also, Sullivan was the only witness who could provide any
details as to what the attacker (and his friend) were wearing.
The description was used in the BOLO alert sent to law
enforcement. Critically, Sullivan described the attacker as
wearing khaki pants and a light colored shirt with rolled up
sleeves (T. 425). Sullivan also did not recall the attacker
having any tattoos (T. 472-3).1
Merck was wearing blue jeans and a button down shirt that
was pink. According to Mr. Merck, Thomas was wearing khaki pants
and a light blue button down shirt with the sleeves rolled up.
The video tape from law enforcement’s search of the vehicle
depicts a light blue shirt, with the sleeves rolled up and a pair
of khaki pants. The pink shirt, which was also reflected by the
video did not have sleeves that were rolled up.
And, while Sullivan identified Mr. Merck as being the
attacker, she did so only after being provided with information

1

Mr. Merck had a large tattoo on his forearm (T. 852-3).
6

that was impermissibly suggestive.2
2

At the first state court evidentiary hearing, Dr. John Brigham,
a psychologist, testified as to factors that affect the accuracy
of eyewitness memory. Dr. Brigham testified that eyewitness
identifications were often inaccurate (PC-R. 800).
According to Brigham, several factors would be relevant to
determining whether Sullivan’s identification of Mr. Merck as the
attacker was reliable. The factors included: that Sullivan had
consumed alcohol within hours of the attack (PC-R. 803); that Mr.
Newton and Sullivan were friends and there would have been high
motivation for her to identify the attacker (PC-R. 803); that Mr.
Merck’s unique appearance due to the condition of his eyelids
make him stand out in a lineup (PC-R. 804); that Sullivan’s
vision may have been obscured due to her placement in her vehicle
(PC-R. 805); and that it would have been more difficult to make
an accurate identification after Sullivan had assisted in the
drawing of the suspect (PC-R. 809).
Most importantly, Dr. Brigham testified as to his concerns
about the way the photo pack was conducted. Specifically,
Sullivan was told to pick out the person who most closely fit her
description (PC-R. 806). Such a comment “is in complete violation
of accepted practices for administering a lineup where you’re
supposed to make it clear that the person may or may not be in
here.” (PC-R. 806).
Brigham continued:
There is another factor which – one of the issues
is if you’re told or led to expect or you lead
yourself to expect that the person is in there, then
you’re likely to treat it like a multiple choice test
rather than as a true-false test. Multiple choice
says which person is it.
In this case, as I understand from the testimony,
she moved, after looking for about two minutes, which
is a relatively long time, she moved five photos out
and said “these aren’t him,” and then concentrated on
the remaining one, which indicates that she was
treating it as a multiple choice situation, which of
these six is it? It wasn’t those five. So she was left
with one. I believe that a police officer told her to
close her eyes and concentrate and try to remember.
She then positively identified the remaining
photograph.
(PC-R. 806-7).
In addition, if Sullivan was instructed to select the
suspect, meaning the attacker, versus asking her if she could
identify anyone from the scene, law enforcement also may have
interfered with the accuracy of the identification (PC-R. 807-8).
Thus, the photo-pack was conducted in a suggestive manner (PC-R.
7

In addition, Richard Holton, who witnessed the attack from
his truck testified that the driver of the car, who was not the
attacker, was taller and skinnier than the person who committed
the stabbing (T. 725). Thomas was two inches taller than Mr.
Merck, but he was also nearly 40 pounds heavier.
After the attack, Thomas and Mr. Merck left the scene in the
Bobcat. According to Thomas, Mr. Merck showed Thomas the knife
which was covered with blood (T. 751). Mr. Merck also bragged
about the attack and threatened to harm Thomas’ grandmother if he
said anything (T. 751-2).
After a few minutes, Thomas’ mind “shifted to evasion” (T.
753). He pulled the car over and started changing clothes and
pulled the tag off the car; “[Mr. Merck] started changing his
clothes”, too (T. 753). They both ran when they saw a police car
and hid in the bushes (T. 753). Then, they got a taxi and went to
a bowling alley across from their motel (T. 754). At Mr. Merck’s
suggestion, they played a game of pool (T. 754).
When they got back to the motel, Mr. Merck told the story of
the attack “over and over”. (T. 754).
Mr. Merck, who had suffered alcoholic blackouts in the past,
testified that he did not remember the attack (T. 829). Mr. Merck
recalled that Thomas was saying things to Mr. Newton when he
dropped a shot glass and he didn’t remember anything after
bending down to pick it up (T. 829). The next thing Mr. Merck
remembered was Thomas standing by the car and telling Mr. Merck
822).
8

that he had to change his clothes (T. 829-30).
The next day, Mr. Merck asked Thomas where the car was; he
did not recall what had happened (T. 841). Mr. Merck also
presented witnesses who described how Thomas kept telling Mr.
Merck what happened that night and that Mr. Merck was the
attacker while Mr. Merck seemed not to believe that he (Merck)
was the attacker. This was particularly so because Mr. Merck had
not been the one who was acting aggressively toward Mr. Newton,
that was Thomas (T. 796-8).3
Following the hung jury, a conflict between Mr. Merck and
his trial counsel arose (R. 1471). The conflict concerned the
defense strategy to be used at the second trial. Mr. Merck
insisted that he did not engage in the charged acts and did not
want trial counsel to pursue voluntary intoxication as a defense.
On April 6, 1993, the trial court appointed private counsel,

3

At the October 2, 2017, evidentiary hearing, Thomas explained
that he did not testify at Mr. Merck’s original trial (PC-R2.
392), but after the mistrial, the State told him that he was
needed to testify and if he did not show up he’d “be given a
protective custody warrant and [he’d] be held in jail until he
testified (PC-R2. 392-3). In fact, the State had obtained an
order to hold Thomas as a material witness (PC-R2. 340; 393). It
was because of the order that Thomas testified against Mr. Merck
(PC-R2. 393).
Thomas also testified that during his trial testimony he
recalled: “that when Troy and I were in the car and I was trying
to get him to change his clothes, that I was having a hard time
getting him to respond.” (PC-R2. 397-8). Thomas testified that:
“I felt like he needed to change clothes, so I had a hard time
getting him out of the car and into the – to change his clothes.”
(PC-R2. 402). Thomas further stated that following the attack,
Mr. Merck was “kind of slumped over” in his seat (PC-R2. 398). It
stuck with Thomas that Mr. Merck was “highly intoxicated”, and
“very, very drunk” at the time of the crime (PC-R2. 398, 399,
414).
9

Frederic Zinober, to replace prior trial counsel for Mr. Merck’s
second trial (R. 1512). However, Mr. Merck was repeatedly told
that “the defense” of his case was “up to [his] lawyers” (R.
2458).
And, at his second trial, Mr. Merck again did not enjoy the
defense that he requested. Instead trial counsel’s theory of the
defense was two-fold: he attempted to raise an intoxication
defense in addition to a defense of reasonable doubt (PC-R2. 4211). Zinober testified at the 2017 evidentiary hearing and
explained his use of the intoxication defense in Mr. Merck’s
trial:
One, I think it would have supported Troy’s
testimony that he actually didn’t remember what
happened as opposed to – and I realize that was an
unusual thing to try to sell to the jury that somebody
that had actually done, you know, what the State was
suggesting Troy had done would not remember. It is an
unusual thing.
So basically, if Neil’s testimony was more along
the line of Troy’s, it would support Troy’s position
that he really didn’t remember, that it wasn’t a
situation which I believed that the State was taking
the position that Troy was full of baloney, so to
speak, that he really couldn’t remember and he just
wasn’t willing to say that he didn’t remember.
So, A, it would have, I believe supported Troy’s
testimony in my position that it was an alcoholic
blackout.
And the second thing is, obviously, to the extent
that it was an alcoholic blackout, it was that level of
intoxication, it would have gone further to support the
secondary defense of voluntary intoxication.
(PC-R2. 424-5).
And, at his capital trial, Mr. Merck’s jury was instructed:
The defense asserted in this case is of
voluntarily intoxication by use of alcohol. The use of
alcohol to the extent that it merely arouses passions,
diminishes perception, releases inhibitions, or clouds
10

reason and judgment it does not excuse the commission
of a criminal act. However, where a certain mental
state is an essential element of a crime and a person
was so intoxicated that he was incapable of forming
that mental state, the mental state would not exist,
and, therefore, the crime could not be committed. As I
have told you, the premeditated design to kill is an
essential element of the crime of murder in the first
degree. Therefore, if you find from the evidence that
the defendant was so intoxicated from the voluntarily
use of alcohol as to be incapable of forming the
premeditated design to kill, or you have a reasonable
doubt about it, you should find the defendant not
guilty of murder in the first degree.
Voluntarily intoxication is not a defense to the
crime of murder in the second degree or the crime of
manslaughter.
(T. 1213-14)(emphasis added).
At the 2010 evidentiary hearing, trial counsel admitted that
he did not clarify during the charge conference that voluntary
intoxication was merely one of the defenses (PC-R. 770). Trial
counsel confirmed that he could have sought clarification that
voluntary intoxication was “a” as opposed to “the” defense in the
trial (PC-R. 771).
FLORIDA SUPREME COURT’S RULING
In response to Mr. Merck’s claim that his Sixth Amendment
rights were violated when trial counsel pursued an intoxication
defense over his objection, the Florida Supreme Court held:
In Merck’a case, as we have previously held, trial
counsel ‘never admitted Merck’s guilt in advancing the
intoxication theory.’
Merck v. State, 298 So. 3d 1120, 1121 (Fla. 2020), quoting Merck
v. State, 124 So. 3d 785, 794 (Fla. 2013).

11

REASONS FOR GRANTING THE WRIT
I.

THIS COURT SHOULD REVIEW THE ISSUE OF WHETHER TRIAL
COUNSEL’S DECISION TO PRESENT A VOLUNTARY INTOXICATION
DEFENSE VIOLATED MR. MERCK’S AUTONOMY TO ASSERT HIS
INNOCENCE.

In McCoy v. Louisiana, this Court explained that “a
defendant has the right to insist that counsel refrain from
admitting guilt ...” because “the Sixth Amendment demands that he
or she be provided with the Assistance of Counsel for his
defense.” 138 S.Ct. 1500, 1505, (2018). When this error is
committed it is structural error, not subject to a harmless error
analysis or even prejudice. Id. at 1511. This is so because
“[s]uch an admission blocks the defendant’s right to make the
fundamental choices about his own defense. And the effects of the
admission would be immeasurable, because a jury would almost
certainly be swayed by a lawyer’s concession of his client’s
guilt.” Id.
A.

Mr. Merck’s Case
Mr. Merck’s first capital trial occurred in November 1992,

and concluded with a hung jury (R. 1386, 1465). At the first
trial, Mr. Merck pursued a voluntary intoxication defense. The
fact that the first trial resulted in a hung jury provided Mr.
Merck an opportunity to hear and see the State’s evidence.
The evidence from the first trial made clear that the
identity of the individual who attacked Mr. Newton was ambiguous,
at best. Thus, following the hung jury, Mr. Merck insisted that
trial counsel not pursue voluntary intoxication as a defense
because that was an admission of his guilt:
12

THE COURT: Nora, Troy Merck doesn’t want you. What
is going on?
MS. McCLURE: Troy wants to ask to appoint
different counsel to represent him. Let him explain.
Basically his contention is we’re not representing the
defense he wants us to. He has a different idea.
***
THE COURT: This is 91-16659, State versus Troy
Merck. Mr. Merck, I have been advised you’re not happy
with the attorneys that are representing you. Sir, What
is the problem?
THE DEFENDANT: There is just a difference in how
we want to go about the defense. Other than that,
they’re great attorneys.
THE COURT: Well, Mr. Merck, how you go about the
defense is up to your lawyers. Sir, unless you graduate
from college and law school, and if you have, if you
represent yourself, you got a fool for a client. They
know the best way to go on this.
THE DEFENDANT: Yes.
THE COURT: And the fact that there is disagreement
between the two of you is not, or the three of you, is
not sufficient reason for me to have these lawyers
withdrawn.
THE DEFENDANT: It’s just that the way that this
disagreement is not just something petty.
THE COURT: Doesn’t matter.
THE DEFENDANT: It’s gonna get –
THE COURT: Doesn’t matter, sir. They know the best
way to go on this, believe me. I am gonna deny the
motion. Public Defender’s Office is still on the case.
(R. 2458-9).
After the hearing, Mr. Merck filed a grievance with the
Florida Bar against his trial counsel (R. 2469-70). Trial counsel
explained to the trial court that Mr. Merck “wants the case tried
in a fashion that he would be not guilty opposed to what the case
13

was argued before, that he was perhaps guilty of a lesser.” (R.
2472).
On April 6, 1993, the trial court permitted the Office of
the Public Defender to withdraw and appointed private counsel,
Frederic Zinober, to replace prior trial counsel for Mr. Merck’s
second trial (R. 1512).
However, Zinober, like Mr. Merck’s original trial counsel,
did not respect his client’s “[a]utonomy to decide that the
objection of the defense is to assert innocence.”. McCoy, 138
S.Ct. at 1508. Instead, Zinober explained that while Mr. Merck
told him that he did not believe he committed the crime, Zinober
refused to give up the “defense of voluntary intoxication” (PC-T.
782).
During the charge conference, when discussing the voluntary
intoxication instruction, Mr. Merck confronted Zinober and
indicated that he categorically did not want Zinober to put forth
such a defense (See T. 1068). However, Zinober ignored Mr. Merck
and due to the asserted defense, the jury was instructed:
The defense asserted in this case is of
voluntarily intoxication by use of alcohol. The use of
alcohol to the extent that it merely arouses passions,
diminishes perception, releases inhibitions, or clouds
reason and judgment it does not excuse the commission
of a criminal act. However, where a certain mental
state is an essential element of a crime and a person
was so intoxicated that he was incapable of forming
that mental state, the mental state would not exist,
and, therefore, the crime could not be committed. As I
have told you, the premeditated design to kill is an
essential element of the crime of murder in the first
degree. Therefore, if you find from the evidence that
the defendant was so intoxicated from the voluntarily
use of alcohol as to be incapable of forming the
premeditated design to kill, or you have a reasonable
14

doubt about it, you should find the defendant not
guilty of murder in the first degree.
Voluntarily intoxication is not a defense to the
crime of murder in the second degree or the crime of
manslaughter.
(T. 1213-14)(emphasis added). And, the State, anticipating the
jury instruction on voluntary intoxication as the defense spent
significant time on arguing that it was not a defense at all:
And intoxication is only a defense of first degree
murder. It’s not a defense of second degree or
manslaughter. And it’s only a defense if somebody would
be so impaired – their mental process is so impaired
from alcohol they would not be able to form the intent
to kill. In this case he would just have absolutely
have no consciousness of what he was doing, no
consciousness of the nature and the quality of his
actions of what he was doing.
This wasn’t a disorganized sequence of events in
the conduct from Troy Merck. Because, like I said, was
very deliberate, goal-oriented series of acts that led
to that man’s death. There wasn’t any provocation on
the part of Mr. Newton. He wasn’t talking to him. He
wasn’t calling him names. He wasn’t – he was standing
there saying, “I’m not gonna fight you.
That wasn’t good enough for Troy Merck. He decided
to get the knife and end his life. So, his very actions
show this goal-oriented, purposeful series of conduct.
And the testimony of the people in the parking lot that
saw him – you talk more about ridiculous amounts of
alcohol. He wants you to believe he drank in that bar.
But there is not one single piece of evidence that
would be consistent with anybody drinking quantities of
alcohol that he indicated or quantity of alcohol that
were raised to the extent he would not have any – he
wouldn’t be able to go through the purposeful action
of which you heard.
The witnesses testify that he did. But it’s not a
defense to the extent that the use of alcohol merely
arouses passions, diminishes perception, releases
inhibition or clouds reason and judgment. It does not
excuse the commission of a criminal act. It has to be
from the evidence.
When this trial started, he was presumed innocent.
He’s not presumed intoxicated. So, if you want to make
a finding he was intoxicated, you got to look for
reliable creditable evidence to indicate he was
impaired from alcohol to the extent – people saw him
out in this parking lot and said he was walking. He was
15

talking fine. He was catching keys. He takes the keys.
Puts them in the key hole. Puts – takes the shirt off.
Going through very normal, easy physical activities
that everybody can do when they’re sober not showing
one bit of impairment.
His speech isn’t slurred. He’s not staggering.
He’s not falling down. He’s, he’s in total control of
what he’s done. And he knew very well he wanted to do
this and that was to end that man’s life. Drinking had
no affect on him at all. All it did was release his
inhibition to that fact he knew very well what he did
and what he wanted to do.
Mr. Zinober says we’re trying to put a square peg
in the round hole. No, no, that’s Mr. Square peg in a
round hole back there. Because find he didn’t intend to
kill, find he wasn’t the killer, you would have to
force a doubt. It goes both ways.
(T. 1200-02). Trial counsel’s conduct in disregarding Mr. Merck’s
objective violated his Sixth Amendment right and is contrary to
McCoy.
B.

Legal Analysis
In McCoy, this Court stated:
Guaranteeing a defendant the right ‘to have the
Assistance of Counsel for his defence,’ the Sixth
Amendment so demands. With individual liberty – and, in
capital cases, life – at stake, it is the defendant’s
prerogative, not counsel’s, to decide on the objective
of his defense: to admit guilt in the hope of gaining
mercy at the sentencing stage, or to maintain his
innocence, leaving it to the State to prove his guilt
beyond a reasonable doubt.’

McCoy v. Louisiana, 138 S.Ct. 1500, 1505 (2018). In Mr. Merck’s
case, he made his choice: he chose to “maintain his innocence,
leaving it to the State to prove his guilt. Beyond a reasonable
doubt.” Id. His trial counsel, Frederic Zinober, thwarted Mr.
Merck’s choice by raising a voluntary intoxication defense.
At the time of Mr. Merck’s first and second trials, in
Florida, voluntary intoxication was a defense to premeditated
16

first degree murder. See Linehan v. State, 476 So. 2d 1262, 1264
(Fla. 1985). However, it was an affirmative defense, requiring
“that the defendant come forward with evidence of intoxication at
the time of the offense sufficient to establish that he was
unable to form the intent necessary to commit the crime charged.”
Id. Indeed, the “evidence of alcohol consumption prior to the
commission of a crime does not, by itself, mandate the giving of
jury instructions with regard to voluntary intoxication.” Id.
Thus, Zinober made the decision and presented evidence of
intoxication sufficient to warrant a jury instruction for the
defense of voluntary intoxication, contrary to Mr. Merck’s
decision.
As the Florida Supreme Court recognized in Merck v. State,
124 So. 3d 785, 794 (Fla. 2013), trial counsel used voluntary
intoxication as a defense to first degree murder. It is axiomatic
that a voluntary intoxication defense means that the defendant,
here Mr. Merck, committed the crime, but due to his intoxication
is guilty of a lesser offense. See Id. (Stating that trial
counsel “used the intoxication defense to negate
premeditation.”). In doing so, trial counsel “usurpe[d] control”
of Mr. Merck’s autonomy to challenge the State’s capital charge,
in violation of the Sixth Amendment. McCoy, 138 S. Ct. at 1511.
Mr. Merck clearly and unambiguously made a decision about
his defense. He even requested that his original trial counsel be
removed from his case and filed a grievance to that end.
Therefore, Zinober was required to “abide by [Mr. Merck’s
17

objective” and violated his rights by conceding his guilt by the
use of voluntary intoxication. See McCoy, 138 S.Ct. at 1509.
Furthermore, counsel’s violation constituted structural
error which is neither subject to a prejudice analysis or
harmless error review. As this Court held, the error in Mr.
Merck’s case,
“affects the framework within which the trial
proceeds,” as distinguished from a lapse or flaw that
is “simply an error in the trial process itself.”
Arizona v. Fulminate, 499 U.S. 279, 310, 111 S.Ct.
1246, 113 L.Ed.2d 302 (1991). An error may be ranked
structural, we have explained, “if the right at issue
is not designed to protect the defendant from erroneous
conviction but instead protects some other interest,”
such as “the fundamental legal principle that a
defendant must be allowed to make his own choices about
the proper way to protect his own liberty.” Weaver, 582
U.S., at ––––, 137 S.Ct., at 1908 (citing Faretta, 422
U.S., at 834, 95 S.Ct. 2525). An error might also count
as structural when its effects are too hard to measure,
as is true of the right to counsel of choice, or where
the error will inevitably signal fundamental
unfairness, as we have said of a judge's failure to
tell the jury that it may not convict unless it finds
the defendant's guilt beyond a reasonable doubt. 582
U.S., at –––– – ––––, 137 S.Ct., at 1908 (citing
Gonzalez–Lopez, 548 U.S., at 149, n. 4, 126 S.Ct. 2557,
and Sullivan v. Louisiana, 508 U.S. 275, 279, 113 S.Ct.
2078, 124 L.Ed.2d 182 (1993)).
Id. at 1511.
Contrary to the dictates of the Sixth Amendment as well as
the this Court’s decision in McCoy, Mr. Merck’s conviction must
be vacated as structural error occurred at his capital trial.
Mr. Merck’s sentence was vacated and his case is not final,
therefore, the principles set forth in McCoy apply to his case.

18

CONCLUSION
Petitioner, Troy Merck, requests that certiorari review be
granted.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by United States mail, first class postage prepaid, to
Stephen D. Ake, Senior Assistant Attorney General, Office of the
Attorney General Concourse Center Rd., 3507 E. Frontage Rd.,
Tampa, FL 33607, on December 8, 2020.

/s/ Martin J. McClain
MARTIN J. MCCLAIN
Fla. Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
martymcclain@earthlink.net
COUNSEL FOR PETITIONER

19

